GR-40-99-001
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 

Office of Justice Programs

Grant for the Boot Camp Construction Initiative to the 

Georgia Department of Juvenile Justice
Grant No. 95-SC-LX-0045
 
GR-40-99-001
 
October 1998
 
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of grant
number 95-SC-LX-0045, awarded by the U.S. Department of Justice, Office of Justice
Programs (OJP) to the Georgia Department of Juvenile Justice (grantee). The grantee
received the grant of $1,719,768 to construct a boot camp facility in Milledgeville,
Georgia, to serve nonviolent juvenile offenders. The original grant period was September
1, 1995 through August 31, 1997, but was extended to September 1, 1999. 

In brief, our audit determined the grantee:



Charged unallowable costs of $44,674 to the grant. Specifically, the grantee made
      unapproved purchases of personal items and office equipment.




Did not plan to use $231,153 of the grant funds. Accordingly, the funds should be
      deobligated and used to help fund additional grants under the program. 




Submitted most Financial Status Reports (FSRs) to OJP late and incorrectly reported the
      total program outlays and Federal share of outlays on the FSRs.


These items are discussed in detail in the Findings and Recommendations section of the
report. Our scope and methodology appear in Appendix II.
#####